 

  

   
  
 

CLERK OF COURT:
MAHONING COCKY OHIO

NOV 172015

  
  
 

IN THE COURT OF COMMON PLEAS

MAHONING COUNTY, OHIO =
LED

STATE OF OHIO ANTHONY. VIVO. CLERK

2015 CR 01132
Vs.

JUDGMENT ENTRY

LANCE HUNDLEY
November 17, 2015

Defendant

 

Defendant, LANCE HUNDLEY, in open court with counsel acknowledges receipt of a
copy of the indictment, waives any defect in time and manner of service of the indictment
and waives reading thereof. Defendant enters a plea of NOT GUILTY. Upon motion of
the prosecuting attorney, bond is No Bond

Upon inquiry by the Court, the Defendant is found to be indigent.

Attorney Louis Defebio ishppointed tetained counsel. IF
COUNSEL IS APPOINTED, PURSUANT TO OHIO REVISED CODE 120.36,
DEFENDANT IS ORDERED TO PAY THE SUM OF TWENTY-FIVE
DOLLARS ($25.00) TO THE CLERK OF COURTS WITHIN SEVEN (7) DAYS
FROM THE DATE OF ARRAIGNMENT.

This case is assigned to courtroom a
Initial Discovery Pretrial is set on November a0 , 2015 at 1:30 P.M.
The Court sets this case for TRIAL on January 11, 2016 at 8:30 A.M.

Fudge / Magistrate

In compliance with Ohio Superintendence Rule 36, the undersigned counsel is the attorney
who will try this case.

   

2015 CR
Attorney (Ih Wi iW 01132
00053392056

CRJUD

ce: PAUL J. GAINS

3107
ue 090370
